No. 20-937

 

 

IN THE

Supreme Court of the United States

ROBERT ANDREWS,

Petitioner,
v.

STATE OF NEW JERSEY,
Respondent.

On Petition for a Writ of Certiorari to the
Supreme Court of New Jersey

REPLY BRIEF FOR PETITIONER

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,892 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 20, 2021.

 

Colin Casey Mogan
Wilson-Epes Printing Co., Inc.
